IN THE
SUPREME COURT OF THE UNITED STATES
Signature of Petitioners
March 4, 2020
Certification of Word Court
Whereas Petitioners Writ of Certiorari Word Count is 8,995.00 with Foot
Notes with all Information enclosed Writ of Certiorari is True and Correct
under penalty of perjury and the foregoing Appendix is true and correct send
to the following:
I, the undersigned, A No
Public in the City and Sta^ aforesaid
hereby certify James Beggs £
____ Joyce Begj
"we declare (or certify, verify^ or state^nder penalty of pe
foregoing is true and correct.
Executed on (date)

/]

Subscribed and sworn to before me this
day
2Q__z®
My Commission expires: ^?f?b6]>c»~Notary Public
I
ERNEST1NA GILL
NOTARY PUBLIC
H
- REQ. #7614865
COMMONWEALTH OP VIRGINIA
MYcXlSSlON EXPIRES SEPTEMBER 30,2022

2

IN THE
SUPREME COURT OF THE UNITED STATES
Veteran Certification
March 4, 2020
I James R. Beggs certify that I am a veteran of the United States Army for
over 20 years (2) If executed within the United States, its territories, possessions, or
commonwealths: "I declare (or certify, verify, or state) under penalty of perjury that the
foregoing is true and correct. Executed on (date).

James R. Beggs
I James R. Beggs certify that my son Cornelius Bobbitt-Beggs is a Veteran of
the United States Army under President Obama. (2) If executed within the United
States, its territories, possessions, or commonwealths: "I declare (or certify, verify, or
state) under penalty of perjury that the foregoing is true and correct. Executed on (date).

POA for “Said Veteran”

James Beggs

POA for Said Veteran

oyce Beggs

otarvPublic in the City and/Stat^ aforesaid do hereby
I, the undersigned/
certify James Beggs
Joyce Beg_
"I
declare (or certify, verify, or state) under penalty o£perjury th ;he foregoing
is true and correct.
Executed on (date).
ernestinagill
NOTARY PUBLIC
REG. #7614865
8MmgM COMMONWEALTH OF VIRGINIA

MY COMMISSION EXPIRES SEPTEMBER 30,2022

3

